Audit
Report
    ALLEGATIONS CONCERNING DEFENSE REUTILIZATION
      AND MARKETING SERVICE BUSINESS PRACTICES


Report No. D-2002-025                 December 17, 2001



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CONUS                 Continental United States
DLA                   Defense Logistics Agency
DRMO                  Defense Reutilization and Marketing Office
DRMS                  Defense Reutilization and Marketing Service
FSC                   Federal Supply Class
GAO                   General Accounting Office
NPR                   National Performance Review
SBA                   Small Business Administration
                      Office of the Inspector General, DoD
Report No. D-2002-025                                               December 17, 2001
  (Project No. D2001LD-0092.001)

                Allegations Concerning Defense Reutilization
                 and Marketing Service Business Practices

                                   Executive Summary

Introduction. We performed this audit in response to a request from Senator John
Warner. The request was based on several allegations the senator’s office received
concerning the operations of the Defense Reutilization and Marketing Service (DRMS)
in regard to the disposal of excess material. As of September 2001, DRMS had 69
offices that disposed of excess material with annual operating costs of $299.4 million.
Of the 69 offices, 4 were regional centers with the authority and capability to
demilitarize weapon systems and related items in the interest of national security and
public safety. In FY 2001, DRMS total sales were about $54 million.

Objectives. The overall audit objective was to review the allegations, which addressed
DRMS costs to transport items to regional centers for demilitarization and the impact
on small businesses of changes in DRMS operations for selling excess property and
scrap.

Results. The allegations were not substantiated. DRMS made a decision to centralize
demilitarization operations to add necessary controls for national security purposes and
public safety over the sale of items that require demilitarization. Additional
transportation costs were incurred, but the changes in the demilitarization process did
provide some economies in the overall operations. DRMS changed the manner in
which it sells excess material as part of an implementation plan to improve business
practices that did not adversely impact small business opportunities. The sale of wall
lockers as scrap material by DRMS was appropriate because the sale of the lockers as
usable surplus material would have resulted in costs that exceeded anticipated proceeds.
The contractual requirement for the contractor to provide containers for the removal of
scrap material and the DRMS decision to sell an entire batch of scrap material to a
single contractor instead of breaking it up into parcels were not barriers to small
business participation and a small business was awarded the contracts. See the Results
section of the report for the specific allegations and details of our review.

Management Comments. We provided a draft of this report on October 29, 2001.
No written response was required, and none was received. Therefore, we are
publishing this report in final form.
Table of Contents

Executive Summary                  i


Introduction
     Background                   1
     Objectives                   3
Results
     DRMS Business Operations     4

Appendixes
     A. Audit Process
          Scope and Methodology   10
          Prior Coverage          11
     B. Reductions in DRMS        12
     C. Report Distribution       13
Background
    We performed this audit in response to a congressional request. Senator John
    Warner requested that a cost comparison be conducted of the new transportation
    cost to ship scrap materials from military bases to Defense Reutilization and
    Marketing Service (DRMS) regional locations for demilitarization and the
    revenue that DRMS would have received if the scrap material had been sold by
    local Defense Reutilization and Marketing Offices (DRMOs). Senator Warner
    also requested that we determine whether DRMS had made an assessment of the
    impact on small businesses from the consolidation of its scrap and surplus
    material operations and the bundling of associated contracts. In a meeting with
    the staff of the Senate Armed Services Committee, the staff clarified that
    Senator Warner’s request was on behalf of a constituent of Senator Jesse Helms.
    The staff requested that we contact the constituent and evaluate his concerns.
    Upon meeting with the constituent, we received several specific allegations
    concerning the operations of DRMS. The allegations addressed costs to
    transport items to regional centers for demilitarization and the impact on small
    businesses of changes in DRMS operations for selling excess material.
    Specifically, the complainant made the following allegations.

       •   DRMS incurred unnecessary transportation costs by moving items that
           required demilitarization.

       •   DRMS has been changing the manner in which it sells material, which
           placed a barrier to small business participation.

       •   The DRMO at Camp Lejeune, Jacksonville, North Carolina,
           inappropriately sold wall lockers as scrap material instead of selling them
           as usable surplus material.

       •   The DRMO at Camp Lejeune required that a contractor provide five
           containers for the removal of scrap material as a condition of the
           contract. That requirement was a barrier to small business participation.

       •   The DRMO at Camp Lejeune sold a batch of scrap material to a single
           contractor rather than break it up into smaller units. That method of sale
           was a barrier to small business participation.

    DRMS Organization and Mission. DRMS is an organization within the
    Defense Logistics Agency (DLA) that is responsible for the reutilization,
    transfer, donation, sale, and disposal of inventory items that become excess to
    DoD requirements. DoD organizations turn in excess material to DRMS for
    disposition. DRMS uses a priority system to dispose of excess material. The
    first priority is redistribution of excess material to another DoD user that has a
    requirement for the item. The next priority is donation to qualified nonprofit
    organizations. The final disposition priority is sale of the item to the general
    public. DRMS may sell material to the general public as usable surplus material
    or as scrap material. In FY 2001, DRMS total sales were about $54 million.

                                        1
Demilitarization. In selling items to the public that were used for a military
purpose, DRMS has the responsibility to ensure that the items are disposed of in
a way that does not pose a threat to national security or public safety. The
process that DRMS uses at selected DRMOs to render military equipment
ineffective is called demilitarization. Demilitarization can be accomplished by
mutilating, cutting, crushing, scrapping, melting, burning, or altering the
equipment and material to prevent its further use for its originally intended
military or lethal purpose. As of September 2001, DRMS had 69 U.S. offices
that disposed of excess material with annual operating costs of $299.4 million.
Four of those 69 offices had the authority and capability to demilitarize weapon
systems and related items in the interest of national security and public safety.

DRMS Operations. The end of the Cold War triggered a sequence of events to
improve Government operations by implementing management initiatives
throughout the Government, such as reengineering processes, downsizing
organizations, privatizing functions, and instituting better business practices.
The new Government initiatives affected DRMS operations and caused major
changes in how DRMS conducted its business. Consistent with the new
initiatives, in 1992, DLA directed DRMS to become self-sufficient by balancing
sales revenue and its overall operating costs. In response to the DLA direction,
DRMS began actively examining alternative business practices.

During that period, the National Performance Review (NPR), subsequently
called the National Partnership for Reinventing Government, was established to
oversee and ensure improved Government operations. The need to reduce the
number of Government personnel and to reduce the cost of all Government
activities, particularly in DoD organizations, had an immediate impact on
DRMS in its exploration of new business practices. The Deputy Secretary of
Defense also designated DRMS as a Reinvention Laboratory, specifically to
assist in the study of alternative privatization methods.

In February 1996, the Deputy Secretary of Defense approved the DRMS
Enterprise Management business philosophy, allowing DRMS the ability to
selectively privatize its operations and to work with industry to incorporate
private sector management approaches. Then, in June 1996, an NPR
Committee determined that DRMS should explore using the private sector to sell
excess DoD material.

By pursuing various management initiatives, DRMS became a smaller
organization. DRMS consolidated DRMOs, reducing operating costs, requiring
less equipment, and reducing the number of locations and personnel. DRMS
reduced its operating budget from $380 million in FY 1996 to $299.4 million in
FY 2001. DRMS anticipates future initiatives to further reduce its operating
budget to $286.6 million by FY 2005 (see Appendix B). DRMS is continuing to
develop integrated business strategies, including the Scrap Venture Program, to
further reduce operating costs.




                                    2
     Scrap Venture Program. For the Scrap Venture Program, DRMS decided to
     award three sales contracts to sell scrap material on a regional basis. DRMS
     would receive a share of the net proceeds of sales. All DRMOs in the
     continental United States (CONUS), with the exception of North Carolina,
     South Carolina, and Tennessee, were planned to participate in the Scrap Venture
     Program. DRMS will receive about 80 percent of the net revenue from sales
     under the program.

     Small Business. The Small Business Administration (SBA) establishes the
     requirements for Federal organizations in their dealings with the small business
     community. The Government property sales assistance program within SBA
     ensures that small businesses obtain their fair share of all Federal personal
     property qualifying for sale or other disposal action. The Code of Federal
     Regulations, Title 13, defines a small business for recyclable material
     wholesalers, or the scrap industry, as one with 100 or fewer employees.

Objectives
     The overall audit objective was to review the allegations, which addressed
     DRMS costs to transport items to regional centers for demilitarization and the
     impact on small businesses of changes in DRMS operations for selling excess
     property and scrap. See Appendix A for details on the audit scope and
     methodology and for prior coverage.




                                         3
            DRMS Business Operations
            The allegations concerning transportation costs for items requiring
            demilitarization and barriers to small business opportunities were not
            substantiated. DRMS made a decision to centralize demilitarization
            operations to add necessary controls for national security purposes and
            public safety over the sale of items that require demilitarization.
            Additional transportation costs were incurred, but the changes in the
            demilitarization process did provide some economies in the overall
            operations. DRMS changed the manner in which it sells excess material
            as part of an implementation plan to improve business practices that did
            not adversely impact small business opportunities. The DRMS sale of
            wall lockers as scrap material was appropriate because the sale of the
            lockers as usable surplus material would have resulted in costs that
            exceeded anticipated proceeds. The contractual requirement for the
            contractor to provide containers for the removal of scrap material and the
            DRMS decision to sell an entire batch of scrap material to a single
            contractor instead of breaking it up into parcels were not barriers to
            small business participation and a small business was awarded the
            contracts.


Transportation of Items Requiring Demilitarization
     Allegation. DRMS incurred unnecessary transportation costs by moving items
     that required demilitarization.

     Audit Results. The allegation was not substantiated. The decentralized process
     for demilitarization of excess material within DRMS was ineffective and
     inefficient. Because of inadequate controls at local DRMOs, material had been
     released to the public and foreign nationals that resulted in international and
     national incidents. Additionally, local DRMOs were unnecessarily expending
     resources to demilitarize commercially available items, such as lighting fixtures,
     tools, and cotter pins, and significantly reducing the value of the items before
     selling the material. The DRMS decision to centralize demilitarization
     operations was appropriate because it added necessary controls over the sale of
     items that required demilitarization and provided a more cost-effective means of
     accomplishing the DRMS demilitarization mission.

     During the 1990s, the DRMS demilitarization process was under criticism from
     the news media, Congress, the General Accounting Office (GAO), and the
     Inspector General, DoD, because surplus military material, including parts for
     aircraft, missiles, tanks, and rifles, was getting into the hands of foreign
     nationals or private citizens and was causing international and national incidents.
     For example, a December 9, 1996, U.S. News & World Report article reported
     that foreign buyers, such as Iran, Iraq, and China, were purchasing high-tech
     surplus military items, including encryption devices, submarine propulsion
     parts, radar systems, electron tubes for guided missile systems, and parts for
     stealth fighter aircraft.

                                          4
When DRMS began its management initiatives to downsize and restructure
functions in 1996, there were 152 DRMOs throughout the United States and the
demilitarization process was dispersed unevenly among those offices. The
organization and nonstandard procedures for demilitarization contributed to
control weaknesses over access to military items by the general public and
foreign nationals. To improve the controls, DRMS initiated actions to centralize
the demilitarization process in March of 1998. DRMS centralized
demilitarization to nine sites in March 1999. The nine sites were Anniston,
Alabama; Crane, Indiana; Fort Lewis, Washington; Fort McClellan, California;
Letterkenny, Pennsylvania; St. Juliens Creek, Virginia; Texarkana, Texas;
Tucson, Arizona; and Warner Robins, Georgia. Based on the results of a
November 1999 study by Analysis Group, Inc., DRMS consolidated the
demilitarization operations from nine to four sites. The four sites, in Anniston,
Crane, Texarkana, and Tucson, provide demilitarization support to 69 DRMOs
in CONUS. Generally, items sold by DRMS that require demilitarization pass
to the general public as scrap through one of those four centralized
demilitarization sites. However, on an approved exception basis, material can
be demilitarized at another site.

At a centralized demilitarization site, specialized personnel perform the
demilitarization tasks. All of the specialists undergo a series of training
programs that make them proficient in numerous demilitarization techniques.
At the four sites, DRMS is able to concentrate its investment in the specialized
equipment required to perform demilitarization. That is in contrast to the
previous decentralized system in which the responsibility for the performance of
demilitarization was one of many functions assigned to all of the DRMOs. A
small percentage of material requiring demilitarization is sold at either a DRMO
or at the organization that has the excess material, with demilitarization
performed by the sales contractor. That process is used when an item is too
large to easily or economically transport to one of the centralized
demilitarization sites. DRMS controls the process by requiring approved
surveillance plans and Government oversight of the contractor’s performance of
demilitarization.

Although the change in DRMS operations to centralized demilitarization was
driven primarily by the need for added control over material requiring
demilitarization, DRMS did consider the cost impact of the change. DRMS
determined that centralized demilitarization yielded economies in the areas of
personnel and equipment. An independent contractor, Analysis Group, Inc.,
completed a study for DRMS in November 1999 to evaluate the financial impact
of the centralized demilitarization concept for the nine operating demilitarization
sites. The study estimated an annual cost benefit of about $682,000 by
centralizing and reducing demilitarization operations to four sites. The study
used a trade-off analysis considering transportation costs, processing
efficiencies, and labor costs to determine the optimal set of sites for
demilitarization.




                                     5
Changes in DRMS Sales Practices for Scrap Material
    Allegation. DRMS has been changing the manner in which it sells scrap
    material. The changes required a greater level of commitment on the part of the
    contractor that acquires the material. Those changes were a barrier to small
    business participation.

    Audit Results. The allegation was not substantiated. Changes affecting the
    sale of scrap were part of larger business strategies directed by DLA authorities
    to improve the overall efficiency of DRMS operations. Although the changes
    may have affected commitments by individual contractors, the changes were not
    a barrier to small business participation.

    DLA directed DRMS to reduce the number of its personnel, to privatize its
    functions, and to implement best business practices that would produce more
    efficient operations. Significant personnel reductions have already been
    achieved and more are planned (see Appendix B). In order to achieve those
    reductions, DRMS implemented numerous changes affecting its business
    practices. All of those changes formed an integrated plan that allowed DRMS
    to perform its mission while downsizing and privatizing.

    The condition and type of material determines whether DRMS sells the material
    as usable surplus material or as scrap material. For both types of material,
    DRMS is moving toward partnering arrangements with contractors to perform
    the sales functions. Those arrangements have contributed to the ability of
    DRMS to downsize and still accomplish its mission because contractor
    personnel perform functions that were previously performed by DRMS
    personnel. The arrangements require contractors to be responsible for the sale
    and removal of material for a stated period of time. One of the arrangements is
    the Scrap Venture Program. In establishing the terms of the Scrap Venture
    Program contracts, DRMS was making a concerted effort to provide
    opportunities for small businesses to participate.

    Prior to the development of the Scrap Venture Program, small businesses were
    actively participating in the sale of scrap material. In FY 2000, DRMS
    sold about $31.9 million worth of scrap material in CONUS, and more than
    92 percent of the scrap material was sold to small businesses. In FY 2000,
    351 businesses purchased scrap material and 323 of them were small businesses.

    In June 2000, DRMS began partnering for the sale of scrap material on a limited
    regional basis. The program, titled Scrap Pilot, is the forerunner to a planned
    scrap removal program titled Scrap Venture. Scrap Venture contracts will be
    awarded on a geographic basis and will include 45 CONUS states. The
    excluded states are North Carolina, South Carolina, and Tennessee. DRMS
    personnel estimated that those contracts will be awarded in April 2002. In
    preparation for the beginning of the Scrap Venture arrangement, DRMS
    management was conducting discussions with the small business community to
    incorporate small business concerns into the terms and conditions of the
    contracts.

                                        6
    To address the concerns of the small business community, DRMS was making
    the following specific provisions for the Scrap Venture:

           •   establishing a control area of the country that will not be covered by
               the Scrap Venture contracts in order to provide a basis for
               comparison of the impact of Scrap Venture on the small business
               community;
           •   including a small business resale provision in the terms and
               conditions of the Scrap Venture contracts that will provide incentives
               to the Scrap Venture contractor to involve the small business
               community in the resale of material;
           •   providing a point of contact within DRMS to respond to the
               continuing needs of the small business community;
           •   sending DRMS representatives to small business conferences to
               enable DRMS to be aware of the concerns of the small business
               community; and
           •   agreeing to report an analysis of the Scrap Venture impact on small
               businesses to Senator Jesse Helms’ office.


Sale of Wall Lockers at Camp Lejeune
    Allegation. The DRMO at Camp Lejeune, Jacksonville, North Carolina,
    inappropriately sold wall lockers as scrap material instead of selling them as
    usable surplus material.

    Audit Results. The allegation was not substantiated. The sale of the wall
    lockers as scrap material was appropriate. DRMOs have the authority to decide
    on the sale method for items based on what is most advantageous to the
    Government. The DRMO at Camp Lejeune determined that selling the lockers
    as usable surplus material would have resulted in anticipated costs exceeding
    anticipated revenues. The generating organization, Marine Corps Base Camp
    Lejeune, turned in 1,378 wall lockers between January 2000 and May 2001.
    DRMO management decided to sell the lockers as scrap material instead of
    selling them as usable surplus material. That decision was made after
    considering several factors, including:

           •   the availability and cost of personnel to process the lockers for sale
               (personnel costs to process a sale of usable material include the costs
               to move, record, and sell the items),
           •   past sales offers,
           •   available storage space, and
           •   the condition of the lockers (the lockers were in poor to fair
               condition when DRMO, Camp Lejeune, received them).

                                         7
Contractual Requirement for Containers for the Removal of
  Scrap Material at Camp Lejeune
    Allegation. The DRMO at Camp Lejeune required that a contractor provide
    five containers on site for the removal of scrap material as a condition of the
    contract. That requirement was unreasonable and was a barrier to small
    business participation.

    Audit Results. The allegation was not substantiated. The requirement to
    provide containers for the removal of scrap material was not a barrier to small
    business participation. The inclusion of the contract clause was consistent with
    other DRMS strategies to reduce personnel requirements and improve business
    processes, and it was clearly in the best interest of the Government. The
    practice enabled generating organizations to place discarded scrap material
    directly into containers that could then be picked up by the contractor. The
    practice streamlined the process by eliminating the need for DRMO personnel to
    handle the material. The containers also provided an environmental benefit by
    reducing the potential for ground contamination.

    On September 8, 2000, the DRMO awarded contract number 31-0643-0004 for
    the removal of scrap material at Marine Corps Base, Camp Lejeune. The
    contract had a requirement for five containers that could each handle 65 cubic
    yards of scrap material. The specifications were based on the volume of scrap
    material generated by the serviced organizations. Southern Metals Recycling, a
    small business with about 25 employees, was able to comply with the specified
    requirements, was awarded the contract, and was successfully performing under
    the contract.


Bulk Sale of Scrap Material at Camp Lejeune
    Allegation. The DRMO at Camp Lejeune sold a batch of scrap material to a
    single contractor rather than break it up into smaller units. That method of sale
    was a barrier to small business participation.

    Audit Results. The allegation was not substantiated. In April 2000, Marine
    Corps Base, Camp Lejeune, notified its DRMO that the DRMO would no
    longer be permitted to conduct business at the outside storage location at Camp
    Geiger because of surface contamination. Camp Geiger is a satellite location of
    Camp Lejeune. The DRMO at Camp Lejeune was required to remove all gear,
    equipment, material, and personnel from that location by May 5, 2000, in order
    to allow for the environmental cleanup. Initially, the environmental cleanup
    prevented any access to the site and delayed the sale and removal of the scrap
    material. The DRMO decision to require the contractor to provide for the
    removal of all the material was necessary because the DRMO had neither the
    personnel nor the equipment at Camp Geiger to accomplish the task. The
    contractor accomplished the timely removal of the scrap material.


                                         8
The DRMO at Camp Lejeune had a total of 874,112 pounds of scrap material to
be sold. The material was sold through two contracts, one advertised nationally
and one negotiated locally. Southern Metals Recycling, a small business of
about 25 employees, bought all of the material. Contract number 31-1606-0017
was awarded on December 27, 2000, from the national solicitation, and contract
number 25-1016-0001, Item 1, was awarded on January 16, 2001, as a result of
the locally negotiated sale. Southern Metals Recycling removed all of the
material from the site by February 1, 2001.




                                   9
Appendix A. Audit Process

Scope and Methodology
    Work Performed. We contacted and discussed the allegations with the staff of
    the Senate Armed Services Committee and traveled to Jacksonville, North
    Carolina, to interview the complainant. We also interviewed officials at DLA,
    DRMS, and the DRMO at Camp Lejeune, North Carolina, to collect
    information concerning changes in the manner in which DRMS conducted
    business and how those changes impacted small business opportunities. We
    developed the history of the changes in the DRMS business practices affecting
    demilitarization from newspaper and magazine articles, command briefings,
    independent studies, the NPR, the Defense Performance Review, and prior audit
    reports. The documents we reviewed included the Code of Federal Regulations,
    DoD and DLA guidance on DRMS, contracts on the removal and sale of scrap
    material, cost studies on the consolidation of demilitarization, official
    correspondence, and summary disposal data related to scrap sales. The
    documents we reviewed were dated from January 1991 through
    November 2001.

    Limitations to Scope. Because our objective was limited to evaluating
    allegations related to changes in DRMS business practices and their impact on
    small businesses, we did not review the management control program.

    High-Risk Area. GAO has identified several high-risk areas in DoD. This
    report provides coverage of the Defense Infrastructure high-risk area.

    Use of Computer-Processed Data. We used computer-processed data that
    came from the DRMS database for scrap sales. To the extent that we reviewed
    the computer-processed data, we concluded the data were sufficiently reliable to
    be used in meeting our objectives. We did not audit the system that produced
    the data.

    Audit Type, Dates, and Standards. We performed this economy and
    efficiency audit from March through October 2001 in accordance with generally
    accepted government auditing standards.

    Contacts During the Audit. We visited or contacted the complainant,
    individuals and organizations within DoD, and the staff of the Senate Armed
    Services Committee. Further details are available upon request.




                                       10
Prior Coverage
     GAO issued two reports and the Inspector General, DoD, issued three reports
     covering aspects of the disposal of items requiring demilitarization.
     Unrestricted GAO reports can be accessed over the Internet at
     http://www.gao.gov. Unrestricted Inspector General, DoD, reports can be
     accessed at http://www.dodig.osd.mil/audit/reports.

General Accounting Office
    GAO Report No. NSIAD-98-182 (OSD Case No. 1632), “Defense Inventory:
    Action Needed to Avoid Inappropriate Sales of Surplus Parts,” August 3, 1998

    GAO Report No. NSIAD-91-10 (OSD Case No. 8462), “Property Disposal:
    Controls Needed to Preclude DoD Release of Unsafe Surplus M151 Jeeps,”
    January 2, 1991

Inspector General, DoD
     Inspector General, DoD, Report No. D-2000-170, “Disposal of Range Residue,”
     August 4, 2000

    Inspector General, DoD, Report No. D-2000-050, “Disposal of Munitions Items
    at Fort Irwin,” December 8, 1999

    Inspector General, DoD, Report No. 97-130, “Coding Munitions List Items,”
    April 16, 1997




                                       11
Appendix B. Reductions in DRMS
   DRMS has had a significant reduction in its operations since FY 1996 as a result
   of several initiatives within the Executive Branch to downsize Government and
   institute best business practices. The need for personnel and equipment to
   perform demilitarization operations was effectively reduced as part of the
   overall downsizing and implementation of best business practices by DRMS.
   The following table illustrates the effect of the downsizing policies and presents
   actual data from FY 1996 through FY 2001 and DRMS projected estimates from
   FY 2002 through FY 2005 for DRMS operations.


             Actual and Projected Changes in DRMS Operations
                      From FY 1996 Through FY 2005

                     Operating Costs           Personnel      DRMO
                      (in millions)            Strength       Locations

   FY 1996               $380.0                  3,636          152
   FY 1997                348.9                  3,473          127
   FY 1998                357.5                  3,195           95
   FY 1999                339.9                  2,761           72
   FY 2000                338.1                  2,326           71
   FY 2001                299.4                  1,760           69
   FY 2002                297.6                  1,744          N/A*
   FY 2003                292.5                  1,586          N/A
   FY 2004                286.1                  1,477          N/A
   FY 2005                286.6                  1,410         10-20

   *Not available.




                                       12
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics and Materiel Readiness)
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Director for Acquisition Initiatives

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Logistics Agency
  Commander, Defense Reutilization and Marketing Service

Non-Defense Federal Organization
Office of Management and Budget




                                          13
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform

Honorable Jesse Helms, U.S. Senate




                                         14
Audit Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant Inspector
General for Auditing, DoD, prepared this report. Personnel of the Office of the
Inspector General, DoD, who contributed to the report are listed below.

Shelton R. Young
Tilghman A. Schraden
Alexander McKay
Herman Tolbert
Jason T. Steinhart
